                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: 1-07-12-0050                                                                  Page 1 of 1



         This investigation was initiated based on a qui tam received by the U.S. Attorney's Office,
         Baltimore, MD. The qui tam alleged that a bio-technology company' submitted false statements
         in its Small Business Innovation Research (SBIR) Phase II proposaf.

         Our investigation confirmed the allegations and revealed that the former chief executive officer~
         (CEO) caused material false statements and false claims to be made. The firm and its former
         CEO entered into a monetary settlement agreement4 • As part ofthe settlement agreement, the
         firm agreed to be bound by a five-year compliance plan and the former CEO has voluntarily
         excluded himself from receiving federal funds for five years. (The settlement agreement and
         compliance plan are attached to this closeout).
                                           ,
         Accordingly, this investigation is closed.




         3   Dr. David Kyle (PI)
         4   ABN and Dr. Kyle e,ach paid the government $467,000




NSF OIG Form 2 (11/02)
                                     SETILEMENT AGREEMENT·

         This Settlement Agreement ("Agreement") is entered by and. among the Unit~d States of

America -- on behalf of its agencies the Department of Justice and the National Science

Foundation (''NSF'') -'- the relator Albert Cunniff, Jr. ("relator" or "Cunniff'), Advanced

BioNutrition Corp. ("ABN") and David Kyle ("Kyle"), all collectively hereinafter referred to as

"the 'Parties."
                                                                                          "
                                                       PREAMBLE

         A. .     WHEREAS on or about September 20, 2007, Relator Cunniff filed a .!ll!i tam

action in the United States District Court for the District ofMaryland entitled United States ex

reI. Albert Cunniff. v. Advanced Bionutrition ComoratioQ, Civil Action No. L-07-2519 ("the

Civil Action") alleging that ABN violated the False Claims Act, 31 U.S.C. sections 3729-3733;

         B.       WHEREAS the United States investigated the allegations in the relator's

complaint;

         C.       WHEREAS, as a result of its investigatio?, the United States contends that ABN

and/or Kyle (ABN's Chief Executive Officer at the pertinent time) violated the False Claims Act,

31 U.S.C. §§ 3729-3733, and/or common law doctrines by (1) making material

misrepresentations, false certifications and omissions in the Phase II proposal of NSF _



                                                that caused NSF to award Phase II and (2)

misrepresenting and· falsely certifying to the     progre~s   obtained in the Phase II work in the interim

and final reports that were submitted to NSF (the "Covered Conduct");




Settlement Agreement Between
United States and Advanced BioNutritiol1 Corporation
and David Kyle




                                                                              ....   _ _..._ - - - - - - - - - - - - - ­
                                                                                                    ,   1
                                                                                                            .'




         D.      WHEREAS the United States contends that the Covered Conduct resulted in the

 knowing submission by ABN of false billing claims to the government which enabled ABN to

 collect federal payments improperly;

         E.      WHEREAS the United States contends that it has certain administrative claims

 against ABN and Kyle (for his alleged conduct while ABNfs Chief Executive Officer) for

 engaging in the Covered Conduct;

         F.      WHEREAS ABN and Kyle deny the contentions of the United States in 


 paragraphs C, D and E above, deny the allegations in the Civil Action, and deny that ABN or 


 Kyle violated any United States federal or State law'andlor committed any unlawful acts; and 


         G.      WHEREAS the Parties mutually desire to reach a full and final compromise of

 all civil claims the United States and the relator have or may have against ABN and Kyle based

 on the Covered Conduct, and further wish to avoid the delay, expense, inconvenience and

uncertainty ofprotracted litigation.

                                         TERMS AND CONDITIONS

        NOW, THEREFORE, in·consideration of the mutual promises, covenants, and

obligations in this Agreement, and for good and valuable considerations as stated herein, receipt

ofwhich is hereby acknowledged, the Parties agree as follows:

         L       ABN and Kyle agree to pay the, United States the sum   ofNii1eHundredan~
                                           .    ..          .   ..
Thirty-Four Thousand Dollars ($934,000.00) ("Settlement Amount"),
                                                          .
                                                                  and this sum. shall

.constitute a debt immediately due and owed to the United States on the date that this Agreement

is fully executed. The Settlement Amount shall be paid by ABN and Kyle as follows:


                                                      -2­
Settlement Agreement Between
United States andAdvanced BioNutritioll Corporation
and David Kyle
                  A.      ABN shall pay the sum ofFour Hundred and, Sixty-Seven Thousand

Dollars ($467,000.00) plus interest in the amount of five percent (5%~ with certified funds made·

payable to the United States Department of Justice as follows:

                          (1)      . Fifty Thousand p.S. Dollars ($50,000.00) within ten (10) business

days of the Effective Date of this Agreement; and

                          (II)     Seventy. Five Thousand U.S, Dollars ($75,000.00) within one year
                                                •     .!                      '




of the Effective Date of this Agre~ment (Year 1 payment) plus interest at the rate Of 5% on the

unpaid principal amount since the date of the last payment; and.
                                                                                      , '

                        .. (III)                                          .
                                   One Hundred Thousand U.S. Dollars ($100,000.00) within two.

):'ears· of the Effective Date of this Agreement (Year 2 payment) plus interest at the rate of 5% on

the unpaid principal amount since the 4ate of the last payment; and

                          (IV)     One Hundred and Twenty-Five Thousand U.S. Dollars

($125,000.00) within thre~ years ofthe Effective Date of this Agreement (Year 3payment) plus

intere~t   at the rate of 5% on the unpaid principal amount since t~edate of the l§lst payment; and

                         (V)       One
                                     .                                            .
                                       Hundred and Seventeen Thousand U.S, Dollars ($117;000.00)

within four years of the Effective Date of this Agreement (Yea~ 4 payment) plus interest at the

rate of 5% on the unpaid principal amount since the, date of the last payment..

        Provided, however, that ABN may make prepayments from time to time without

premium or penalty. Any prepayments will be applied to .yhe scheduled payments of principal in

inverse order of their maturity.




                                                      - 3­
Settlement AgT'eement Between
United States and Advanced BioNutrition Corporation
and David Kyle          .
                      B.      Kyle shall pay the sum of Four Hundred and Sixty-Seven Thousand

     Dollars ($467,000.00) with certified funds made payable to the United States Department of

     Justice within ten (10) business days     ofth~   Effective Date of this Agreement.

                      C.      ABN further agrees to pay relator $25/792.00 for expenses and attorneys'

     fees and costs within ten (10) business days of the Effective Date of this Agreement.

             2.      In addition to the Settlement Amount in paragraph 1 (A), above, ABN agrees to

     execute a StipUlation for Consent Judgment whereby it agrees, among other things, that if there

     is a default by it in the payment of its portion of the Settlement Amount and a failure to timely

     cure that default within twenty (20) days of receipt of written notice by certified mail from the

     United States to ABN clo William Kirk, Chief Executive Officer, 7155-H Columbia Gateway

     Drive, Columbia, Maryland 21046 and ABN's designated counsel Jerrold A. Thrope, Gordon,

     Feinblatt, R.othman, Hoffberger & Hollander, 233 E., Baltimore Street, Baltimore, Maryland

    . 21202, 	 ABN agrees to have judgment entered against it as to the remaining unpaid balance of its

     portion of the Settlement Amount plus interest at 5% on the balance due at the time of default, all

     costs of collection, including reasonable attorneys' fees and expenses. The StipUlation for
I
     Consent Judgment will be executed by ABN at the same time that the Settlement Agreement is 


I    executed and will be maintained at the United States Attorney's Office in the District of


     Maryland, but not filed unless there is a default that has not been cured after written notice.

            3.       The United States and ABN agree that ABN will implement the Compliance and

     Integrity Agreement (CIA) attached hereto and incorporated herein under the terms and

     circumstances described herein.


                                                            -4­
    Settlement Agreement Between 

    United States and Advanced BioNutrition Corporation 

    and David Kyle 

         4.'     Upon receipt of the'payments described it: Paragraphs l(A)(I), 1~), and 1(C)

above and subject to'Paragraph 15, below (concerning bankruptcy proceedings commenced

within 91 days of the Effective Date of this Agreement), the United States will release and will

be deemed to have released ABN and Kyle from any civil monetary claims that the United States

has or may have under the False Claims Act, 31 U.S.C. § 3719-3733 (as amended); or the

comtpon law theories of payment by inistake,unjustenrichment, breach of,contract, and fraud

for the Covered Conduct.

         5.      In consideration of the obligations of ABN set forth in this Agreement and the

CIA, and subject to Paragraph 15, below (concer.ning bankruptcy pr,oceedings commenced

within 91 days of the Effective Date of this Agreem~nt) • .the OIG-NSF agrees to release and

refrain from seeking any administrative action against ABN including suspension and/or

debarment (as set forth in2 C.F.R. part 180) based upon the Covered Conduct.

         6.      In compromise and settlement of the rights of NSF to exclude K,yle pursuant to 2

C.F.R. part 180, based upon the Covered Conduct, Kyle        ~grees   to be voluntarily excluded under

this statutory pt:ovision, for a period of five years; The exclusion shall be effective upon the
   .                                                                                  .
Effective Date of this Agreement.. Such exclusion shall have national effect and shall apply to all

other Federal procurement and nonprocurement programs.

        7.                                                                      .
                 The. United States specifically does not release ABN and Kyle from (a) any

potential crimina1liability; (b) any criminal, civil or administrative claims arising ll1lder Title 26 j

U.S. Code (Internal Revenue Code); (c) any liability to the United States (or any agencies
                                                                         .       ,j



thereof) for any conduct other than the Covered Conduct; (d) any obligations created by this


                                                      -5­
Settlement Agreement Between
United States and Advanced BioNutrition Corporation
and David Kyle ..
 Agreement; (e) any claims for defective or deficient services that are not part of the Covered

 Conduct; (t) any claim for personal injury or property damage or for other ~onsequential damage

,arising from the Covered Conduct; and (g) any administrative liability not arising fromthe

 Covered Conduct.

           ,8.    Cunniff agrees and represents that this settlement of the Civil Action is fair,

 adequate, and reasonable' under all the circu~stances, pursuant to 31 U.S.c. § 3730(c)(2)(B).

 Contingent upon the United States receiving the Settlement Amount, the United States agrees to

 pay Cunniffas follows: (a) $42,525.00 within 21 days after the initial payment by ABN and

 Kyle, (b) $11,250 within 21 days of ABN's Year 1 payment, (c) $15,0,00 within 21 days of'

 ABN's Year 2 payment, (d) $18,750'within 21 days of ABN's Year 3 payment and (e) $17,750

, within 21 days of ABN' s Year 4 payment. The Relator expressly understands and agrees that the

 United States is only liable to him for funds actually recei~ea or collected by the United States.

Cunniff, for himself, his heirs, successors, and assigns, releases and forever discharges the

United States, its officers, agents and employees, from any claims arising from or relating to the'

filing ofthe Civil Action, or, pursuantto 31 U.S.C. § 3730(b), (c), (c)(5),(d), and (d)(l).

           Upon receipt of the payments described in Paragraph I (C) above, Cuniff, for himself, and

his heirs, successors, and assigns, releases and forever discharges ABN and Kyle from any

liability to relator arising from the filing of the .Civil Action, or under 31 U.S.c. § 3730(d) for

expenses orattomey's fees and costs.

           9.    Coincident with the full execution of this Agreement, counsel forfue relator will,
       ,   '                                                                   ,


pursuant to Rule 4, provide counsel for the United States with a fully executed stipulation of


                                                      -6­
Settlement Agreement Between
United States and Advanced BioNutrition Corporation
alld David Kyle
. dismissal with prejudice: The United States shall intervene in the Civil Action and file the said

 stipUlation with the Court promptly upon notifi<:;ation that the government ha.s received the initial

 payments referenced in paragraph l(a)(l) and 1(B) above.

         10.     ABN and Kyle fully and finally release the United States, its. agencies, employees,

 servants and agents from any claims (including attorneys fe~s, costs an~ eXpensesof every kind

 and however denominated) which 'ABN and Kyle now have and could hare asserted or could in

the future assert against the Uinted States, its agencies, employees, servants, and agents, related

to the Covered Conduct and the United States' inyestigation and prosecution thereof.

         11.      ABN agrees that all costs (as defined in the Federal Acquisition Regulations .

("FAR") 31.205-470) incurred by or on behalf of ABN ,in,connection
                                                    .         .    with. (1) the matters

covered by this Agreement and the CIA, (2) the government's investigation of the matters

covered by this 'Agreement, (3) ABN's investigation, defense and corrective .actions, including

the costs associated with any compliance plan, with respect to matters covered by th~s agreement,

(4) thenegotiationofthis Agreement, and (5) the payments mad~ to the United States pursuant

to this Agreement, shall be unallowable       cos!~    for governmentcon~cts. ,.

         12.     Each party to this Agreement will bear its own legal and other costs incurred in

connection with this matter, including the preparation and performance of this Agreement.

         13. . cABN and Kyle waive and will not assert ani: defenses th{,)' may have to any

                                                                      .
criminal prosecution or admiriistrative aC.tion relating to the Covered Conduct, to. the extent the

defenses may be based in whole or in part on a contention that, under the Doubl~ Jeopardy

Clause in the Fifth Amendment of the Constitution, or under the Excessive Fines Clause in the


                                                       -7­
Settlement Agreement Between . 

United States and Advanced BioNutritioll Corporation    '.. ',   "

al/d David Kyle 

              •
                                                                                                         .





    . Eighth Amendment of the Constitution, this Settlement bars a remedy in sU,?h criminal

     prosecution or administrative action. ABN and Kyle agree that this settlement is not punitive in

     purpose or effect.

             14.      Each of ABNand Kyle individually warrant that· it or he has reviewed its or his

     financial situation and'that it or he currently is solvent within the meaning of 11 U.S.c. §§ .

     547(b)(3) and 548(a)(1)(B)(ii)(I), and shall remain solvent following the payment to the United

     States of the payment in paragraph in I(A)(I) and 1(B). Further, ABN and the United States

     warrant that, in evalUating whether to execute this Agreement, they (a) have intended that the

     mutual promises, covenants, and obligations set forth constitute a contemporaneous exchange for

,    new value given to ABN, within the meaning of 11 U.S.c. § 547(c)(1); and (b) conclude that
L

     these mutual promises, covenants, and obligations do, in fact, constitute such a contemporaneous
                                                                         ,               '


     exchange. Further, ABN and the United States warrant that the mutual promises, covenants, and

    obligations set forth herein are intended to and do, in fact, represent a reasonably equivalent

    . exchange of value which is not intended to hinder, delay, or defraud any entity to which ABN

    was or became indebted, on or after the date of this transfer, all within the meaning of 11 U.S.c.

    § 548(a)(1)..

             15.     If, within 91 days of the Effective Date of this Agreement or of any payment

    made hereunder, ABN or Kyle commences,.or a third party commences, any case, proceeding, or

    other actionunder any law relating to bankruptcy, insolvency, reorganization, or relief of

    debtors, (a) seeking to have any order for relief of ABN's or Kyle's debts, or seeking to

    adjudicate ABN orKyle as bankrupt or insolvent; or (b) seeking appointment of a receiver,


                                                           . - 8­
    Settlement Agreement Between
    United States and Advanced BioNutritiol1 Corporation
    and David Kyle
". 





  trustee, custodian, or other similar official for ABN or Kyle for all or any substantial part of

  ABN's or Kyle's assets, then ABN or Kyle, whichever is involved in any such case, 'proceeding
       ,




  or other action (the "Proceeding Party"), agrees as follows:

                   a.       The Proceeding Party's obligations under this Agreement may not be

   avoided pursuant to 11 U.S.C. §§ 547 or 548, and the Proceeding Party will not argue or

   otherwise take the position in any such case, proceeding, or action that:, (1) the Proceeding

   Party's obligations under this Agreement may be avoided under 11 U.S~C. §§ 547 or 548; (2) the

   Proceeding Party was insolvent at the time this Agreement was entered into, or.became insolvent

   as a result of the payment made to the United States hereunder; or (3) the mutual promises,

   covenants, and obligations setfo'rth in this Agreement do not constitute a contemporaneous

   exchange for new value given to the Proceeding Party.

                   b.     ' If the Proceeding Party's ob~igations under this Agreement are avoided for

   any reason, including, but not limited to, through the exercise of a trustee's avoidance powers

   under the Bankruptcy Code, the United States, at its sole option, may rescind the release in

   paragraphs 4 and 5 of this Agreement only as to the Proceeding Party, and bring any civil and or

   administrative claim action, or proceeding against the Proceeding Party for the claims that

   would otherwise be covered by the releases provided in Paragraphs 4 and 5 above. ABN and

   Kyle agree that: (1) any such claims, actions, or proceedings brought by the United States are not
                                                                           ,           ,




   subject to an "automatic stay" pursuant to 11 U.S.C. § 362(a) as a result of the action, case; or

  proceeding described in the first clause of this Paragraph, and that ABN and Kyle shall not argue

   or otherwise contend that the United States' claims, actions, or proceedings are subject to an


                                                         -9­
   Settlement Agreement Benveen
   United States and Advanced BioNutrition Corporation
   and David Kyle
 automatic stay; (2) ABN and Kyle shall not plead, argue, or otherwise raise any defenses under

 the theories of statute of limitations, laches, estoppel, or similar theories, to any such civil or

 administrative claims, actions, or proceedings which are brought by the United States within 90

 calendar days of written notification to the Proceeding Party that the releases herein have been·

 rescinded as to the Proceeding Party pursuant to this Paragraph, except to the extent such

defenses were available on the Effective Date ofthe Agreement; and (3) the United States has

the right to assert a claim against the Proceeding Party in the amount of$I,401,OOO.OO, plus civil

penalties under the False Claims Act (31 U.S.c. § 3729, et seq.), subject to any defenses,

including set-off, and the United States may pursue its claims in the case, action, or proceeding

referenced in the first clause of this Paragraph, as well as in any other case, action, or proceeding

only as to the Proceeding Party ..

                 c.       Each of ABN and Kyle individually acknowledges that its or his

agreements in this Paragraph are provided in exchange for valuable consideration provided in

this Agreement.

         16.     ABN and Kyle represent that this Agreement is freely and voluntarily entered into

without any degree of duress or compUlsion whatsoever.

         17. .   This Agreement is governed by the laws of the United States. The Parties agree

that the exclusive jurisdiction and venue for any dispute arising between.and among the Parties

under this Agreement will be· the United States District Court for the District of Maryland.

        18.      This Agreement constitutes the complete agreement between the Parties. The

Parties agree that neither this Agreement nor the act of entering into this Agreement constitutes


                                                       - 10­
Settlement AgN!ement Between
United States and Advanced BioNutritioll COIporation
and David Kyle
eVidence,and is not an admission by any person or entity, and shall not be construed as an

 admission by any person or entity, with respect to any issue of law or fa~t, nor to the commission

 of any unlawful· act.

          19.    This Agreement shall be binding upon the Parties, their successors, assigns, and

 heirs.

          20.    This Agreement shall become final and binding only upon signing by each

 respective party hereto.

          2'1.   This Agreement may not be changed, alter~d, or modified, except in writing

 signed by all undersigned parties. This Agreement may not be discharged except by .

 performance in'accordance with its,terms or by writing signed by all parties.

          22.    All Parties consent to the United States' disclosure of·this Agreement and the

 Compliance and Integrity Agreement, and information about this Agreement and the Compliance

 and Integrity Agreement to the public.

          23.    This Agreement may be executed in             counterp~rts, each of which ~hal1 constitute
 an original and all of which shall constitute one and the same Agree;neilt.

          24.    This Agreement is effective on the date of the last signatory to it. Facsimiles of

signatUres shall constitute. accep!able; binding signatures for purposes of this Agreement.




                                                      - 11 ­
Settlement Agreement Between
United States and Advanced BioNutrition Corporation
and David Kyle        '       •
                                         TIiE UNITED STATES OF'AMERICA

               ROD J. ROSENSTEIN 

               United States Attorney 

                1 trict ofMaryland




     By:   -;~~-+~--------------
                                                                     Dated:SVIl       e' ~ J(j/P.
                                                                                            f
               Thomas . Corcoran 

               Assistant United States ~ttorney        "   .:.. 




                    ",              AD~NIED BIONUTRITION CORP.. " '                                  " ."

     By:           ~P~.".                                            Dated:!I~;)7 2 0                /
                                                                                                         0
                illiam Kirk, President.                              '."          "     I
               Advanced BioNutrition Corp ..



     BY~
     .~                                       ..
                                                                     Dated:   M~'26')       2d j 0

               Attorney for Advanced BioNutrition Corp.



'.    ~~71                               ""         DAVID KYLE
     By,~J~                                                          Dated _____- - - ­
           .    aVldKyle.                 -                             .


     B
                                                                     Dated : _ - - - - - - - - - - - ­




                                                           RELATOR"
                                                                     Dated: ___________~_
     By: 

               Albert Cunniff, Jr., Relator 



                                                                     Dated:
     By: 

               Steven Lebau, Esq. 

               Counsel for Relator . 

                                                             " 12"
     Settlement Agreement Between 

     [hlited States and Advanced BioNutrftioll Corporation 

     and David Kyle
\_   •   '-   0+   ,p',




                                                               THE UNITED STATES OF AMERICA

                                    ROD J. ROSENSTEIN 

                                    United States Attom.ey 

                                    District of Maryland . 



                           By: --'-:=-~~=:---_ _ __                                    Dated: -~-~-----
                                    Thol'il~   F. Corcoran 

                                    Assistant United States Attomey 


                                                          ADVANCED BIONUTRmON CORP.

                           By;.______- -________~.__                                   Dated: _ _ _ _ _ _ __
                                    William Kirk, Presjdent
                                    Advanced BioNutrition Corp.


                           By:.~~ __~~____________                                     Dated ;,_ _ _._ _ _ __
                                    Jerrold Th1.'Ope, Esq.
                                    Attorney for Advanced BioNuttition Corp.


                                                                          DAVID KYLE
                           By;______________              ~    _____                   Dated:,_ _~_...;....,..._ _
                                    David Kyle
                           By:_'_~      ___________                                    Dated    :~,   ______._~_
                                    John Bourgeois, Esq. 

                                    Attorney :for David Kyle 



                                                                               RELATOR

                           :Sy:                                                        Dated:    #1b Li)   ~/O


                           By:


                                                                                ·12·
                           Settlement Agreeme,,' 80lWem
                            United States and Adval1ced BtoNutriti(m Corporation .
                          . and David 'Kyle.
't.
      .,
J




           Advanced BioNutrition C:0rp. ~ABN) Compliance and Integl'ity Agreement


    I.       Preamble

              1.     ABN agrees, as a term ofit~I/I/IISettlement Agreement with the United
     States to which this is attached and incorpor~ted by reference, that upon submitting a
     proposal for an NSF award, upon being identified in a proposal for an NSF award as
     possible recipient of NSF funds (in any capacity), or upon receipt ofNSF funds on any
     basis, to certify to, and provide supporting' documentation fOf, the implementation of a
     Compliance Program. The purpose of this Compliance Program is to ensure compliance
     with the terms and conditions applicable to any NSF awards; to ensure compliance with all
      relevant laws,' regulations, and conditions governing NSF awards as now or hereafter
      amended; and to demonstrate ABN's commitment to the prevention of fraud, false
      statements, and misuse of funds related to NSF awards by ABN, its officers and relevant
      employees. The Compliance Program shall be based upon an assessment of the risk of
      such unlawful activities, have adequate financial and'human resotirces, and be maintained
      so as to ensure that ABN arid each of its officers and relevant employees maintain the
    , integrity required of a recipient pfNSF awards.. Certification that the Compliance Program
      has been implemented shall be submitted to NSF Office of InspeCtor General (OIG) within
      ten (10) days oof ABN submitting aproposal to NSF, ABN being identified in an NSF
    · proposal as a possible recipient of NSF funds or upon ABN's receipt of NSF funds on any
    · other basis. The date NSF OIG receives the certification sh~dl be referred to as the
      Compliance Agreement Effective Date.

            2.      Relevant employees are Principal Investigators (PIs), co-PIs, independent 

     contractors, sub-recipients and any other person \"ho is responsible for the design, conduct, 

     administration or other activity funded or supported by NSF awards. 


            3.      NSF awards herein ~ean' any cooperative agreement, grant, contract, sub­
     contract or other instrument whereby an entity or an individual receives NSF funds. 


     II.      Requirements

             4.     This Agreement commences on the date the final signatory executes the 

     Settlement Agreement to which this Compliance Program is attached and incorporated (the 

     Settlement Date) and ends five (5) years from the Setth~ment Date, or if applicable, five 

     years from the Compliance Agreement Effective Date. 


              5.     The scope of this Compliance Program shall be limited to any NSF-funded
     ,activity taking place during the term of this plan and NSF funds awarded or disbursed
    , during the compliance period. NSF OIG shall monitor compliance \vith the requirements
    · of this Compliance Program.                      .
                                                                                        Page 1 of 1


     Compliance and integrity Agreement 

     Between NSF and Advancad BioNutrilion Corp.. 

            6.     All reports and n9tifications required under this Compliance Progiam shall
     be sent to the NSF OIG Associate Inspector General for Investigations, via email to
     oig@nsf.gov..
                                                                                    .i   t




              A.    " 	Compliance

              7.       If there is any Compliance Agreement Effective Date during the i~ ofthis
     Agre~ent, ABN agrees to implement and to certify to having implemented the measures
     set forth in 'paragraphs 8 -12, 20 and 21 by the <dat~ of any Compliance Agreement
     Effective Date, unless otherwise specified below:                          '

                       i. 	      Compliance Program
                                                     ,	               <


             8.      The Compliance Program shall include identification of relevant employees.
     Each of those roles and responsibilitieS shall be. described so that their relationship' to
     ABN's responsibilities under NSF awards is clear. The lines of responsibility shall be
     clearly established, from each· individual position up to and including ABN's' responsible
     signatory' officials. All. individuals in' such positions will be provided with (or have
     electronic access to) written policies and/or procedures applicable to their positions for:

                      (a) 	    a c~de of~onductholding ABN personnel to high ethical standards'of
                               professional conduct and integrity; including addressing conflicts of
                               interests;

                      (b) 	    accurate time and effort reporting under NSF awards to meet the
                               standards of the cost principles specified in the relevant Office of
                              'Management and Budget(OMB) Circulars;

                      (c) 	    accurate charging
                                        ,	       of costs under
                                                            .   NSF awards; .

                      (d) 	    accurate monitoring, managing and reporting of cost sharing;

                      (e) 	    accurate monitoring of sub-recipients and consultants, and sub­
                               recipient and consultant charges;

                      (f)      a~curate reconciliation of accounting records; and            to


I
I	                    (g)      document management and retention.

           Individuals in such positions are responsible for the effective implementation of the ,
     aforementioned policies 'and procedures.         ' ,

                                                                                                  Page 2 of2

     Comp/ISJ1C6 and Intsgtity Agreement 

     Between NSF and Advanced BloNutrition Corp. 

                   ii.      Compliance Omcer

        9.     After "appropriate screening," the Chief Executive Officer or President of
ABN shaUappoint a senior level administrator, reporting to the President, as Compliance
Officer. The Compliance Officer shall be responsible for Compliance Program operations
including, where appropriate, review of awards,. development of training Compliance
Programs, and submission of comprehensive written annual reports to the President and to
NSF 010 on the status of compliance..The Compliance Officer shall monitor ABN's
internal controls to ensure compliance with all applicable Federal laws:. regUlations, and
conditions regarding the use and expenditure ofNSF Award funds.                .~,
     I                                                   •    •

                  ,
                   Iii.      Compliance Committee

        10.     The Compliance Officer shall chair a Compliance Committee that shall be
resp.onsible for ens\lring implementation of the Compliance Program throughout ABN. In
addition to the Compliance Officer, the members of the Compliance Committee shall
include appropriately screened officers and other employees, including the Chief Executive
Officer, the President, the Vice President - Delivery Technologies, the Vice President ­
Research and Development and the Director of Human Resources.                      .

                      iv.    Written Policies

        II.    ABN shall implement written policies regarding itS commitment to ensure
compliance with all laws, regulations, and conditlons related to the receipt of NSF awards.
These policies shall be adopted by the Chief Executive Officer and distributed to all ABN
officers and relevant employees. Copies of ABN's written policies will be provided to
NSF 010 in conjunction with the certification that this Compliance Program has been
implemented. They shall be included as part of the annual training 'and any policies
modified during the term of .this Compliance Program shall be included as part of the
annual report sent to NSF 010. Such policies shall be updated to reflect any changes in
ABN's policies or practices. ABN;s compliance policies shall include disciplinary
procedures for dealing with employees who fail comply with the policies.

                      v.     Posting and Displaying NSF OIG's Fraud Hotline Poster

         12,          During the ~olofthe Compli~ce PI~ ABN;sh8:lJ:·     "

                 (1) Prominently display NSF OIO's fraud hotline pOster in common work
                 areas within Company divisions and work sites performing work under any
                 NSF award;                       .
                                       :.         ' .             ".     f'.

                 (2) Post on its website an electronic version of the NSF OlO's fraud hotline
                 poster in a manner easily accessible to ABN's relevant employees; and
                                                                                       Page 3 of3

Compliance and Integrity Agteement 

BetwI;fen NSF end Advancsd BioNuttilion CoIp. 

                (3) Request that any subcontractor working on an NSF award post the NSF
                OIO's fraud hotline poster in its commonareas.

         B.       Audit Requirements

        13. . If there is any Compliance Agreement Effective Date during the tenn of this
Agreement, ABN agrees to the audit requirements set forth in paragraphs 13 -16. In
addition to the audit requirements contained in OMB Circular A-133, ABN shall engage·a
qualified external audit finn to conduct, on an annual basis, a comprehensive, statistically­
valid, independent audit of ABN's compliance with this agreement as well as all applicable
federal laws, regulations, and conditions regarding the use and expenditure of NSF award
funds. This. audit shall include each component of ABN that receives or has oversight
responsibility with respect to NSF awards and shall be conducted in accordance with
Oenerally Accepted Auditing Standards with a statistically-valid sample. Special attention
shall be devoted to risk assessment and internal controls designed to ensure compliance
with NSF requirements, including the certifications made on applications, progress reports;
financial reports, and oth~r reports related to NSF awards. The audit will also assess the
efficacy ofABN's compliance program as to whether:


         (a) 	 ABN has established compJiance standards and procedures to 

               prevent and detect violations of law; 

         (b) 	 ABN's leadership is knowledgeable about such standards .and 

               procedures and whether a high-level person is assigned or retained 

               to have responsibility to ensure· the implementation and 

               effectiveness of the standards and procedures; 

         (c) 	 ABN has made reasonable efforts to exclude from substantial
               authority any individual whom ABN knew or should have knoWn
               through exercise of due diligence, has a history of engaging in.
               violations of law or other conduct inconsistent with an effective
               program to prevent and detect violations of law;
         (d) 	 ABN has made reasonable steps to communicate its compliance 

               standards and procedures to relevant employees through effective 

               training programs and other means of disseminating infonnation 

               appropriate to such individuals' respective roles and responsibilities; 

         (e) 	 ABN took reasonable steps to ensure that its program to prevent and
               detect violations of law is followed, to evaluate the effectiveness of
               the compliance standards and procedures, and to provide a system
               wherebyABN's employees and agents may report or seek guidanCe
               regarding potential or actual violations of law without fear of
               retaliation, including mechanisms that allow for anonymous
               reporting;

                                                                                           Page 4 of4

Complience and Integrity Agreement 

Between NSF end Advenced BioNutrition Corp. 

               "'I:    <   _                '    .    .       •	         . '    !


          15. " ABN shall provide a working copy of the audit plan to NSF OIGlllirty (30) 

  days prior to the initiation of the audit. The audit plan will be designed to (1) ensure 

  compliance with the terms and conditions applicable to any NSF awards, and (2) assess the 

  efficacy of ABN's Compliance Program as outlined above. NSF OIG will have the right to 

  require additional procedures if it determines, within ten (10) working days after receiving 

  the advance working copy of the audit plan, that it lacks sufficient detail to ensure 

  accomplishment of (I) and (2) above. ABN shall ,submit to NSF OIG a copy of the 

  independent auditor's written report and findings as, a, supplement to the annual written 

, reports required elsewhere in this Compliance Program. 	 The audit referred to in this
  section may be conducted in whole or in'            part
                                                   by ABN:s intemal auditors, provided that
  ABN provides NSF OIG with adequate assurance in writing, certified by the Compliance
  Officer, that the intemal auditors have the requisite independence in connection with the
  audit plan. ABN waives the right to claim that any final reportS or work papers resulting
  from the independent annual audits as described'above constitute attomey work product or
  any other recognized privilege.              I'.
                                                 ,~           ~. ~



          16.    ,Any and all ,reviews conducted at ABN, which reveal situations that might 

 constitute or indicate noncompliance with NSF requirements. are to be timely disclosed to 

 the 'individual conducting the annual intemal audit and the Compliance Officer.        .

                                                          "


          C.          ,Annual Writtten Reports

          17.     Ifthe~~ is any Compliance Agre~ent Effective Date during the term of this
  Agreement, ABN agrees to the reporting requirements set forth in paragraphs 17:-19.
"ABN shall aDnually provide NSF OIG with a written- report identifying deficiencies
. discovered by the annual' audits.(described ahove)'or 'any other ,audit or review and the
, corrective actions ABN has undertaken to address such deficiencies. ,Such reports shall be
  dUe one (1) year after the Compliance Agreement Effective Date and on the same date for
, each of the four (4) years thereafter. These reports shall include a certification by ABN's
                                                                                         Page 5 of 5


 ComplisflC9 slid Integrlly AgINmant 

 Between NSF and Advanced BfoNutrltion Corp, 

                                                                                                         "'...




     Compliance officer that all d~ficiencies have been addressed to ensure ABN'scompliance 

     with all requirements of federal law, regulations, conditions, and this Compliance Plan. 


             18.   All audit work papers and other supporting documents for audits or reviews
     of compliance with this Compliance Program shall be retain~d by ABN for eight (8) years
     after the Compliance Agreement Effective Date and shall be made available to NSF and
     NSF OIG upon request.                                  '

              19.      A "material violation" or weakness is one that has a significant adverse
     .impact on the administrative, financial, or programmatic aspects of NSF awards. ABN
      shall:
              a) Immediately rePort, every material violation or weakness discovered dUring any
      audit or review to NSF OIG, remedy the material violation or weakness within 30 days of
      learning of it, and notify NSF OIG what actions were taken to correct the it; or
              b) If ABN is unable to remedy the material violation or weaknesswithin'30 days,
     'ABN shall so inform NSF OIG immediately, provide regular status reports thereafter until
      the material violation or weakness is cured, and notify NSF OIG what actions were taken
      to correct it.

              D.       Training
                                                       ,                                          ,


             20. . Ifthere is any Compliance Agreement Effective Date during the term ofthis
     Agreement, ABN agrees to the training requirements set forth in paragraphs 20. ABN shall
II   institute and maintain a comprehensive training Compliance Program designed to ensure
     that each officer and 'relevant employee is aware of all applicable laws, regulations, and 

     standards of conduct that such individoal 'is expected to follow with regard to NSF awards, 

     and the consequences both to the individual and ABN that will ensue from any violation of 

     such requirements. Each officer'and relevant employee shall receive at least two (2) hours 

     of initial training that shall include a' discussion of the contents of this Compliance 

     Program as well as the relevant award requirements, and shall receive additional 

     compliance training of at least two (2) hours on an annual basis. A schedule 'and topic 

     outline of the training shall be .included in the annual report submitted to NSF OIG. A 

     certificate shall be placed in the personnel file of each officer and employee completing the 

     training stating the ~hours of training received. In addition, and with 

     specific reference to _ _ _ ABN shall ensure that                            j~ sup~            

     ABN's Vice President of Research"who shall maintain frequent contact with _ _ 




                                                     _or
     concerning his research activities. The Vice President of Research shall hold weekly 

     discussions                     review:' 


              ]) ~xperi~ents conducted by                  in which_participated during
              the preced~ng week;


                                                                                           Page60f6


     Compliance and Integrity Agl8ement 

     Belwgen NSF and AdVanced BloNutrftion Corp. 

          2)_overall research progress;

         . 3)~pcoming activities;

          4) S~ratingProcedures or other procedures developed b y _ o r
          which_ _ is following; and
                          .   ,
                                                             ,
                                                             ,                    ..J ,      '\




          5) _compliance ~ith allo~er appropriate p~ctice~ and procedures,
          including those specified herein with regard to the Compliance Program "and NSF
          awards.                                                      .

          !hese w7e~ shall be docUmented and such. documentation shall be
          mcluded m~ersonnelfile. ' .       '.'        ..

          E.       'Confidential Disclosure Compliance Program
                                                                         .   ;'
                                                                                    ~   ..
          2) . • If there is any Compliance Agreement Effective Date duriJng the term ofthis .
. Agreement, ABN agrees to establish a confidential disclosure compliance program as set
  forth in this paragraph 21. To the extent permitted by the laws of the State of Maryland,
  ABN shall establish a confidential disclosure mechanism enabling ABN, and relevant
  employees to disclose anonymously to ABN's Compliance Officer any practices,
  procedures, or acts deemed by the employee to be inappropriate. ABN shall make the
  confidential disclosure mechanism known to each relevant employee as part of the training
  described above. ABN shall require the internal review ,of all such credible disclosures and
  ensure that proper follow-up is conducted. ABN shall include in its anll:ual report to NSF
  OIG a summary of communications received under the confidential disclosure Compliance
  Program, and the results ofthe internal review and follow-up of such disclosures.

 III.      NSF OIG Inspection,Audit, and Review Rights
       . 22.     If there is any Compliance Agreement Effective Date during the term of this 

  Agreement, .them on or. after any Compliance Agreement Effective Date, in addition to any 

  other right that NSF OIG has pursuantto NSF award conditions or other authority, NSF 

  OIG may examine.and copy ABN's records for the purpose ofverifying and evaluating: 

  {a)ABN's compliance with the terms of this' Compliance Program; and (b) ABN's 

  compliance with any NSF requirements. ABN shall make the records available at any 

  reason~ble time for inspection, audit, and/or reproduction. Furthermore, for purposes of 

  this provision, NSF OIG. may interview any ABN employee at the employee's place of 

  business during normal business hours or at such other place and time as may be mutually 

, agreed upon between the employee and NSF 010..                  ..



                                                                                                  Page 7 of7

  Compliance and Integrity Ag1fJement 

  Between NSF and Advanced BioNutrition Corp. 

         23.    In the event that NSF OIG believes ABN has breached anyorits obligations 

 under this Compliance Program, NSF OIG shall notify ABN of the alleged 'breach by 

 electronically or by other appropriate means email to ABN's Authorized Organizational 

 Representative ("AOR"), specifying the nature and extent of the alleged breach. ABN will 

 have thirty (30) days from receipt of the notice to: (a) cure said breach; or (b) otherwise 

 satisfY'NSF OIG that (1) it is in full compliance with this Compliance'Progr8.mor (2) the 

 breach cannot be reasonably cured within thirty (30) days, but tluit ABNhas taken 

 effective action to cure the breach and is pursuing such action with diligence. 


          24.    If, at the end of the thirty (30) day period described above,' NSF OIG 

  determines that ABN continues to be in breach of any of its obligations under this 

. Compliance Program, NSF OIG shall inform ABN's AOR of its conclusion that ABN is in
  default. NSF OIG may also take one or both of the following actions: (1) refer the matter
  to NSF to initiate proceedings to undertake appropriate administrative action, including but
  not limited to pursuing the suspension or termination of any or all NSF' awards and/or
  suspension or debarment of ABN; and/or (2) refer the matter to the United States
  Attorney's Office for pursuing civil enforcement, pursuant to the terms of the Settlement
  Agreement.

         25.    Should any action to enforce or interpret this Compliance Program or to 

 resolve any dispute hereunder be required, the Parties acknowledge the jurisdiction of the 

 federal courts. The parties agree that, absent a breach of this Compliance Program and the 

 Settlement Agreement to which it is attached and incorporated by reference, the execution 

 of the Settlement Agreement shall be final· as to all matters alleged in the Settlement 

 Agreement. 


 IV.      Costs
       26.    ABN shall bear its. own costs, expenses, and fees in relation to 

 implementation ofthis Compliance Program . 


       . 27.   All cOsts, whether direct or indirect, incurred by or on behalf of ABN in 

 connection with the following are unallowable costs under the cost principles applicable to 

 government awards (hereafter, "unallowable costs"): (1) the matters covered by this 

 CompJiance Program; (2) the negotiation of this Compliance Program and the ~Settlement 

 Agreement (including attorney's fees) and (3) any payments made· pursuant to the 

 Settlement Agreement.        .


        28. These unallowable costs shall be separately estimated and accounted for by 

 ABN and ABN shall not charge such unallowable costs directly or indirectly to any federal 

 awards. 



                                                                                       Page 8 of8


 Compliance and Integrity Agreement. 

 Between NSF and Advanced BIoNutrition Corp. 

V.      Modification
       29,   Any modification to this Compliance Program shall not be effective until a
written amendment is signed by representatives duly authorized to execute such
amendment.

VI.      Integration Clause
        30.     This Compliance Program and the Settlement Agreement to which it is
attached and incorporated by reference, embody the entire Settlement Agreement and
understanding of the Parties with respect to the subject matter contained herein. There are
no restrictions, promises, representations, warranties, covenants, or undertakings other than
those expressly set forth or referred to in this Compliance Program and the Settlement
Agreement. . This Compliance Program, together with the Settlement Agreement,
supersedes any and all prior Settlement Agreements and understandings between the
Parties with respect to this subject matter, except for the terms and conditions of individual
awards.




By:~.
       /:,          I     ~.
                          ~                          Dated:   Af'-~2?;·2o I 0
      William Kirk, President
      Advanced BioNutrition Corp.




                                                                                        Page 9 of9

ComPliance and Integrity Agreement 

Between NSF and Advanced BIoNutntion Corp. 

